2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

C@OCKLE

Legal Briefs

E-Mail Address:

Est: 1923 contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-942

LAUREL ZUCKERMAN, AS ANCILLARY ADMINISTRATRIX
OF THE ESTATE OF ALICE LEFFMANN,
Petitioner,

ve
THE METROPOLITAN MUSEUM OF ART,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the Amici Curiae Brief Of The 1939 Society, Bet Tzedek, and The
Holocaust Education Center in the Desert, Inc. d/b/a Tolerance Education Center In Support of Petitioner in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:

BENJAMIN G. SHATZ
Counsel of Record
DANIELLE C. NEWMAN
MANATT, PHELPS

& PHILLIPS, LLP

11355 W. Olympic Blvd.,
Los Angeles, CA 90064

STANLEY W. LEVY
Founding National
Director Bet Tzedek’s
Holocaust Survivors
Justice Network

10281 Cresta Drive
Los Angeles, CA 90064

BShatz@Manatt.com
(310) 312-4000

Counsel for Amici Curiae The 1939 Society,

Bet Tzedek, and The Holocaust Education Center in
the Desert, Inc. d/b/a Tolerance Education Center

Subscribed and sworn to before me this 19th day of February, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

de, lilt Orth, hele

Notary Public Affiant 39433

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

 
Mary-Christine Sungaila
William Feldman

Marco A. Pulido

Haynes and Boone, LLP

600 Anton Boulevard

Suite 700

Costa Mesa, CA 92626

(949) 202-3062
MC.Sungaila@haynesboone.com

David W. Bowker, Esq.

Michael David Gottesman, Esq.

Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, N.W.
Washington, DC 20006

202-663-6558
david.bowker@wilmerhale.com
